                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: I07070024
                                                                                I          Page 1 of 1



         The Office of Investigations (01), Office of Inspector General (OIG), initiated an investigation
         based upon a complaint of improprieties regarding the promotions of employees1at the National
         Science Foundation (NSF). OIG initiated an investigation to determine if the promotions
         violated standard personnel practices. The investigative findings did not substantiate the
         allegations of improprieties. Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
